Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





 TIME EXTENSIONS AND FUNDING

    SUPPLEMENTS FOR OHDS

    DISCRETIONARY GRANTS





          VlCl.


                  Richard P. Kusserow
                  INSPECTOR GENERAL

         cl3a         OEI- 04- 89- 00801
                       OFFICE OF INSPECfOR GENERA

The mission of the Offce    of Inspector General (DIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three DIG operating components: the Office of Audit Servces , the
Office of Investigations , and the Offce of Evaluation and Inspections. The DIG also informs
the Secretary of HHS of program , and management problems , and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICE
The DIG's  Offce of Audit Servces (OAS) provides all auditing services for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and effciency throughout the Department.

                           OFFICE OF INSTIGATIONS
The DIG's Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the   Medicaid program.


              OFFICE OF EVALUATION AN INSPECfONS
The DIG's Offce of Evaluation and Inspections         (DEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

DEI's Atlanta Regional Office staff prepared this report under the direction of Jesse J.
Flowers , Regional Inspector General , and Chris Koehler , Deputy Regional Inspector General.
Principal DEI staff included:

Ruth Reiser                                           Susan Hardwick , Headquarters
Jim Wilson                                            Barbara Tedesco , Technical
Christopher Anglin                                           Support Staff
                 EXECUTIVE SUMMARY

PUROSE
To determine the (1) extent and characteristics of Coordinated Discretionary Funds
Program grants that received time extensions and funding supplements , (2) reasons for
approving multiple extensions and supplements , and (3) whether the Office of Human
Development Servces followed requirements in approving time extensions and funding
supplements.

BACKGROUN
The Office of Human Development Servces (OHDS) established the Coordinated
Discretionary Funds Program (CDP) in 1982 to coordinate research , training and
demonstration grant projects that cut across OHDS agencies. The CDP is intended to
provide specified time limit funding, rather than ongoing funding for social servces.
Time extensions and funding supplements for CDP grants must be approved by
OHDS funding agencies -­

    Administration on Aging,

    Administration for Children , Youth and Families
    Administration on Developmental Disabilities
    Administration for Native Americans , and
    Office of Policy, Planning and Legislation.

In August 1991 ,   all OHDS agencies except the Administration on Aging (AoA)
merged with the Family Support Administration , forming the Administration for
Children and Familes (ACF).

METHODOLOGY

To determine the extent and characteristics of CDP grants that received time
extensions and funding supplements , we examined 454 grants (1) awarded in fiscal
years 1986 ,   1987 and 1988 by central offices of OHDS agencies , and (2) closed-out by
October 1990. To determine the reasons for approval of multiple extensions and
supplements and OHDS adherence to its requirements , we reviewed 47 grant fies
selected through stratified random sampling from 97 grants that had received two or
more time extensions or funding supplements. For each grant in the sample , we
reviewed the official grant fies and interviewed grants officers when needed to clarify
and understand material.
FIINGS

Ti exenns were commn for CDP grants.
About 58 percent of the 454 grants reviewed had received time extensions, but three-
fourths had only a single extension of short duration.

The reasons for multiple time extensions were either to complete or to expand the
original scope of work. Those grantees receiving multiple time extensions to complete
their work frequently reported that their award notices had arrived at the end of a
fiscal year -- only weeks or days prior to scheduled start dates -- causing them to get a
late start. The majority of new CDP awards are made in the last quarter of a fiscal
year.

Few CDP grants received fuing supplements.

OHDS staff generall followed reqirements for approving both multiple ti exenns
and fuing supplements.


RECOMMNDATION

ACF and AoA shoul award CDP grants earlier in a fical      year rather than   awarding the
majority of ne grants in the lat qurter.

Such practice will allow needed start-up or lead time for grantees to begin projects on
schedule. Further , it should decrease the number of grants that receive time
extensions due to late starts. We recognize that ACF and AoA schedules for
announcing, reviewing, and approving grants wil   need to be revised to implement this
recommendation.


COMMNT
The draft report was circulated for comment to the Administration for Children and
Familes (ACF) and the Administration on Aging. Both agencies concurred with the
findings and recommendation and are taking steps to award grants prior to the fourth
quarter.

The ACF agreed with our recommendation on the basis of improving management of
its workload rather than decreasing the number of extensions due to late starts.
believe the recommendation could have both impacts -- improving agency workload
management , and precluding grantees from requesting extensions due to late notice of
grant awards. In response to ACF' s technical comments , we made changes to clarify
our information where necessary.
                                                   ..........................................
                                                ............................................
                                                                  . . . . . . . . . . . . . . . . . .. ..... .. .. . ..  . .. ... ... ... .. .. ... ... .. .. .. .. .. .. .....
                       . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .




                                 TABLE OF CONTENTS

         E)O
         INODUCfON
         FIINGS                                                                                                          ...................5

           Time Extensions Were Common for CDP Grants . . . . . . . . . . . . . . . . . . . . . . . 5

           Few CDP Grants Received Funding Supplements. . . . . . . . . . . . . . . . . . . . . . . 8

           OHDS Generally Followed Requirements
           for Approving Extensions and Supplements

         RECOMMNDATION

         AGENCY COMMNT
         ENDNOTE
         APPENDICE
            A: Actual Length of CDP Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A­
            B: Number of Time Extensions
.................................
            C: Extensions and Supplements by Type of Grant . . . . . . . . . . . . . . . . . . .. C­
            D: Extensions and Supplements by Type of Grantee                                                           . . . . . . . . . . . . . . . . . . D­

            E: Number of Funding Supplements . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. E­

            F: Summary of OHDS Grant Awards and Supplements . . . . . . . . . . . . . . .. F­

            G: Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                     . . . . . . . G­
                           INTRODUCTION

PUROSE
To determine the (1) extent and characteristics of Coordinated Discretionary Funds
Program grants that received time extensions and funding supplements , (2) reasons for
approving multiple extensions and supplements , and (3) whether the Office of Human
Development Servces followed requirements in approving time extensions and funding
supplements.

BACKGROUN
The Office of Human Development Servces (OHDS) administered the Coordinated
Discretionary Funds Program which combined grant management support for
discretionary grant programs of all OHDS agencies. In August 1991 , after we started
our inspection , OHDS reorganized. All OHDS agencies , except the Administration on
Aging, merged with the Family Support Administration, forming the Administration
for Children and Familes (ACF).

The findings and information in this report are applicable to both the OHDS
components of the newly formed ACF and AoA.


Ofce of Humn Development Servces
The OHDS included four program agencies and an Office of Policy. They were:

    Administration for Children ,   Youth and Families (ACY),
    Administration on Aging (AoA),
    Administration on Developmental Disabilities (ADD),
    Administration for Native Americans (ANA), and
    Office of Policy, Planning and Legislation (OPPL).

Each program agency served a separate client population. One program agency, AoA,
reported directly to the Secretary, but received grants management support from
OHDS.

Coordinated Dicretionary   Fun Program
In 1982 ,
        OHDS created the Coordinated Discretionary Funds Program (CDP) to
coordinate research , training and demonstration grant projects that cut across OHDS
agencies.

Under CDP , all agencies shared one grants management office , a single solicitation
announcement , and a central computerized information system in OHDS' Office of
                      , "




Management Servces (OMS). However , CDP maintained each OHDS program
agency and OPPL identity for each grant. Each grant had (1) a project officer
assigned by the appropriate program agency or OPPL, and (2) a grants officer
assigned from OMS. These two individuals were responsible for administering CDP
grants. Beginning in 1989 , AoA issued separate grant announcements , but continued
to use other OMS servces.

Most CDP grants awarded from 1986 through 1988 and included in our study were
made by ACYF. The chart below shows the percentage of CDP grants made by each
OHDS program agency and OPPL.

           DISTRIBUTION OF CDP GRATS BY AGENCY

                                                            ADA     (24%)




                                                                   DPPL (4%)
          ACYF (64%)                                              ANA (5%)
                                                             ADD (3%)




In each grant announcement , OHDS specified   , in the  Federal Register , intended
duration for each grant project , and the maxmum amount of funding. OHDS usually
specified the grant time periods as 12 , 17 , 24 or 36 months. Further, OHDS
announcements stated The CDP is not intended to provide funds for ongoing social
servces , or to serve as a supplemental source of funds for local activities which need
operating subsidies.

The OHDS classified most CDP grants into three tyes      -- research ,demonstration
and training. The tyical applicants were state and local governments , private and
public non- profit agencies , and educational-research organizations.

Procedures for Approvig Time Exensons and Funing Supplements

Grantees may request extensions of time and supplemental funding. OHDS advises
grantees of the total length of time for their projects and the amount of Federal funds
for the first budget period. A budget period is usually 12 months , representing a time
segment into which a grant project is divided for funding purposes. Both the
appropriate agency project officer and OHDS grants officer must review and approve
grantee requests before a grant time period can be extended or additional funds
granted.

The project and grants officers have authority to recommend approval of (1) no-cost
extensions of time up to 12 months , and (2) supplemental funding up to 25 percent of
the total approved grant for a current budget period.

The director of grants management in OHDS' OMS must approve no-cost extensions
over 12 months.



Grantees who request funding supplements exceeding 25 percent of a current budget
period must compete with other applicants for available funds. However , if project
and grants management officers determine that a grant project is of outstanding merit
the Assistant Secretary for Human Development Servces (ASHD) or the
Commissioner on Aging may waive the competitive requirement.

A revised Notice of Financial Assistance Awarded (FAA) is OHDS' official
notification to grantees that their requested time extension and funding supplement
was approved. The FAA is signed by the grants officer , and commissioner and budget
officer of the appropriate OHDS program agency.

Prevous Stuies


Both the Office of Inspector General (OIG) and the U. S. House of Representatives
Committee on Government Operations have completed studies on the CDP grant
program. 2 These studies showed that monitoring and oversight of OHDS
discretionary grants were insufficient. However , the studies did not specifically address
procedures for approving time extensions and funding supplements.



SCOPE AN METHODOLOGY

We examined 454 CDP grants (1) awarded in fiscal years 1986 , 1987 or 1988 by
central offices of AoA, ACYF , ADD , ANA, and OPPL, and (2) closed-out by October
1990. We excluded ACYF' s Head Start grants and ANA' s Social & Economic
Development grants because , unlike other CDP grants , the same grantees are
frequently refunded from year to year.

We analyzed descriptive data from OHDS' Grants Management Information System
(GMIS) to determine the extent and characteristics of all 454 grants that received
either time extensions or funding supplements. We analyzed the characteristics of
grants to determine if there were differences in program agency, tye of grant , tye of
grantee , and size of grant for grants with extensions or supplements.
To determine (1) reasons for approval of extensions and funding supplements and
(2) if OHDS followed its requirements , we reviewed a stratified random sample of 47
of the 454 grants. We stratified the 454 grants by agency and by those grants that had
received two or more time extensions or a supplement. Ninety-seven of the 454 grants
had more than one time extension or a funding supplement.

From the stratified universe of 97 grants , we selected a sample of 55 that had received
either multiple time extensions or supplemental funds. We randomly selected half of
the grants in AoA and ACYF. Because of the small number of grants in ADD , ANA,
and OPPL that had experienced either multiple time extensions or supplemental
funding, we selected 100 percent. OHDS' OMS could locate files for 47 of the 55
grants included in our sample. Our stratified universe contained 38 from AoA, 34
from ACYF , 4 from ADD , 8 from ANA and 7 from OPPL? Our sample of 47 grants
contained 19 from AoA, 12 from ACYF , 4 from ADD , 7 from ANA and 5 from
OPPL.

For each grant in the sample , we reviewed the official grants files and intervewed
grants officers when needed to clarify and understand material.
                                               FINDINGS

TI EXTNSIONS WERE                             COMMON FOR CDP GRA

Exent and Legth of                  Ti Exensns
The OHDS approved time extensions for 259 of the 454 grants we reviewed -- about
57 percent. Of the 259 approved extensions , 184 had only a single extension -- about
71 percent. The remaining 75 grants received more than one extension , as the
following chart ilustrates.


                             PERCENTAGE OF 454 CDP GRAS
                                     WITH TIME EXTENSIONS



                                                                   No Extensions (43%)

                                                                             195




                                                                                Multiple Extensions (17%)

           Single Exension
                      184


                                     percentages ar   rounded to   the neaest whole number

The initial contracts for most grants were 24 months or less which is in accord with the
                                Federal Register. Although grants with extensions
grant lengths advertised in the 


usually exceeded the advertised guidelines , 71 percent of all 454 grants finished within
24 months. Time extension for grants that received only one extension averaged four
months. For grants receiving multiple extensions , the extension period averaged nine
months. OHDS agencies seldom approved extensions exceeding 12 months. Only
AoA had more than one such case. Appendix A gives the actual length of grants
including extension periods , for grants approved by each OHDS agency.
Charactertics of Grants wih Time Exenons

The percentage of grants extended in each OHDS agency varied widely. AoA grants
for example , were much more likely to receive an extension than ACYF grants.

The following chart shows variation in single and multiple time extensions by the four
OHDS program agencies and Office of Policy. Appendix B shows the number of
grants with extensions for each agency.




                    GRAS EXTENDED BY ODDS AGENCY
             100%                                                   Single
                                                         85%         Multiple
                     82%
              80%

                                                  62%
              60%


              40%



              20%




                     AOA     ACYF      ADD        ANA    OPPL
                                       Granting Agency



There was less variation by tye of grant or grantee. One tye of grant was not more
likely to receive time extensions than another type. Appendix C gives the number of
grants with extensions by type of grant for each OHDS agency.

However , there was a statistically significant difference by type of grantee.
Government grantees were more likely to get extensions than educational-research
organizations , public non- profit , or private agencies. 4 The relationship between tye
of grantee and time extension for all agencies combined is shown in the following
chart. However , this relationship varies by OHDS agency, as appendix D ilustrates.
     Type of Grantee                     Percent with Exensions

         Government

         Educational

         Public non- profit

         Private agencies





Reasons for Multiple   Ti Exenons
The most common reason reported by grantees for requesting time extensions was to
complete their initial grant workplan. Grantees for the 75 grants that received more
than one such extension tyically justified the extensions based on

    grant execution started late

    sampling delays

    product development and review by consultants took longer than anticipated

    delays due to staff ilness or recruitment problems , and

    state legislative requirements , such as getting bids for printing, delayed
    performance.

Grantees reported that award notices frequently are received only weeks or days prior
to scheduled start dates , causing them to get a late start. As a result , more time was
needed to complete grant workplans. The OMS must allocate CDP funds for each
fiscal year by year s end. The schedule for publishing CDP announcements and
reviewing grant applications has resulted in a time crunch at the end of   a fiscal year.
Accordingly, the majority of new CDP awards are not made until the last quarter of
the fiscal year. Of the grantees in our sample requesting time extensions due to late
arrival of the award notice , three- fourths of the grants were awarded in the last
quarter of the fiscal year.

The second most common reason reported by grantees for multiple time extensions
was to expand original scope of work by adding new and more activities. Examples of
such expansion requests include widening dissemination efforts , allowing a longer
follow-up measurement period , expanding training to include more volunteers
providing more workshops , and adding extra data sources.
FEW CDP    GRA RECEIVD FUING SUPPLEMENT
Exent and Size of Funing Supplemts
The OHDS approved supplemental funding for 38 of the 454 CDP grants we reviewed
-- about nine percent. The supplemental funding for these grants represented three
percent of all CDP grant funds approved during the period from 1986            through 1988
and included in this study.

Twenty-six of the 38 supplemented grants      also received a time extension.


The following chart shows the percentage of grants that all OHDS agencies combined
approved for funding supplements. Appendix E shows the number of grants with
supplemental funding for each OHDS agency.

                     PERCENTAGE OF 454 CDP GRATS
                     WITH FUING SUPPLEMENTS




         No Supplements (92%)

           416
                                                                  Supplement Only (3%)



                                                                  upplement & Ex. (6%)





                        percntages are rounded to the neaest whole number

The grants ranged from an average of $86 000 in ACYF to $216 000 in OPPL. The
size of funding supplements ranged from an average of $21 000 for ANA grants to
$96 000 for ADD.

Only 38 of the 454 grants received supplemental funding; however, almost half (18) of
the supplements exceeded 25 percent of the total approved grant budget , requiring
approval by the Assistant Secretary for Human Development Servces (ASHD) or the
Commissioner on Aging. The percentage of          supplements that exceeded the 25
percent threshold varied widely among the program agencies , as shown in appendix F.
Appendix F also shows the initial award amount , supplemental funding amount
average award and supplement , and supplement amount as a percentage of total
award amount for each OHDS agency.

Characteritics of Grants with   Funing Supplements
As with time extensions ,
                        the extent each OHDS agency supplemented grants with
added funding varied considerably (See chart below). Likewise , the frequency of
funding supplements varied by size of grant. However, there was very little variation
between grants with supplements by tye of grant or grantee.



            100
            GRAS RECEIVING FUDING SUPPLEMENTS
                                     BY OHDS AGENCY
                                                        Supplement Only

                                                        Supplement & Exension




                                                          35%




                  AOA       ACYF ADD              ANA    OPPL
                                Granting Agency


In each agency, larger grants received a supplement more frequently than smaller
ones. Only 48 percent of the 454 grants had contracts exceeding $100 000; however
89 percent of the funding supplements were for grants that originally exceeded
$100 000.

There was no significant difference in percent of grants receiving funding supplements
when analyzed by tye of grant and tye of grantee.

Reasons for Funing Supplements

Grantees most commonly requested supplemental funding to expand scope of work.
Examples of such expansions include adding a control group, investigating a new
problem area , conducting additional workshops , or expanding the number of trainees.
Split- funding was the other major reason for funding supplements. Prior to 1988
OHDS occasionally awarded more grants in a fiscal year than could be fully funded.
OHDS promised grantees that they would provide the remainder of the funds in the
next fiscal year. Under this practice , called split- funding, grants received only a
portion of the amount promised in the first budget period. OHDS agencies provided
the remainder in the following fiscal year in the form of a funding supplement.
Funding supplements due to split- funding always exceeded 25 percent of the approved
budget. Split- funding no longer occurs.

OHDS GENERAY FOLLWED REQUIMENT IN APPROVIG
EXTNSIONS AN FUING SUPPLEMENT
Approvals for Time   Exensons

The official Notice of Financial Assistance Awarded (FAA) had required signatures
for all grants with multiple time extensions. However, for 36 percentS of 75 OHDS
grants with multiple time extensions , at least one of the three required signatures was
late. The FAA form was not dated until after the extension period had begun.
such cases where a grantee proceeds with a grant project prior to receiving official
approval , it is at their own risk.

All grants with time extensions over 12 months contained the OMS grants
management office director s justification.

Approvals for   Funing Supplements
All required FAA signatures for funding supplements were in the fies.

Eighteen grants received funding supplements that exceeded 25 percent of current
approved budget. The required authorizations for supplements exceeding 25 percent
of budget were in the fies for grants in AoA, ACY, and ANA

For ADD grants , one of the three funding supplements that exceeded 25 percent of
current budget did not have the required ASHD approval. The other two had the
required approval. In OPPL, three of four funding supplements that exceeded the 25
percent threshold did not have a memo from the ASHD authorizing the high-cost
supplement , as required. Each of these four funding supplements that lacked ASHD
approval was due to split- funding.

None of the 18 grants that exceeded 25 percent of budget were required to recompete
for funding. Each grantee was given approval to deviate from the competition
requirement.
                   RECOMMENDA TIONS

The following recommendation targets only those tlme extensions attributed to late
arrival of award notices.

ACF and AoA should award CDP grants earlier in a fisca year rather than awardig
the majority of new grants in the last quarter.

Such practice will allow for needed start-up or lead time for grantees to begin projects
on schedule. Further , it should decrease the number of grants that receive time
extensions due to late starts. We recognize that ACF and AoA schedules for
announcing, reviewing and approving grants will need to be revised to implement this
recommendation.
                   AGENCY COMMENTS

The Administration for Children and Familes (ACF) and the Administration on Aging
commented on the draft report. Their comments and our responses are summarized
below. Appendix G contains the full text of the agencies ' comments.

ACF Commnts

The ACF agreed with the thrust of the recommendation from an agency workload
management perspective. ACF has already implemented several steps to accelerate
its grant program announcement and evaluation process.

However , the ACF does not believe that altering grant award schedules will affect the
extent of multiple extensions of project periods. ACF commented that multiple
extensions due to late arrival of awards is not widespread. The agency partly based
this opinion on our finding that only a portion of the 17 percent of grants with
multiple extensions were due to late awards. Further , the agency noted that grantees
with well planned projects have start-up time built into their proposed project periods.
The start-up time allows grantees to stay on schedule even when the period between
notice of award and the start date is very short.

OIG Response

We believe that ACF's acceleration of its grant award notices wil not only improve
agency workload management , but also preclude grantees from requesting extensions
due to late notice of grant awards. The problem of extensions due to late arrival of
award notices is more widespread than just that reported by us for grants with
multiple extensions. Many grantees that received single extensions also reported that
their award notices were received only weeks or days prior to scheduled start dates
causing them to get a late start. Further , we are not suggesting that ACF tailor its
grant awards to meet the varyng preferences of each individual grant applicant.

In response to ACF' s technical comments , we made changes to clarify our information
where necessary.

AoA Comments

The AoA concurred with our recommendation. The agency is making every effort to
schedule announcements , review and approve grants prior to the fourth quarter. Since
1989 , AoA has awarded most new grants in the third quarter, except in 1991.

OIG Response

We believe AoA' s efforts to award grants prior to the fourth quarter will   result in
fewer grant extensions due to late starts.
                                            ENDNOTES

U. S. Department of Health and Human Servces , Office of Human Development
Servces                                            HDS Discretionary Grants
             , Grants and Contracts Management Division.

Administration Manual. (HDS/GAM TN 86- 1), p. 1­

U. S. Department of Health and Human Servces , Office of Inspector General
               Review of Selected Practices in Managing Discretionary Grants.
Office of Audit. 


Office of Human Development Servces . (Audit Control Number 12- 33129).

U. S. Department of Health and Human Services , Office of Inspector General
                         Management Advisory Report: Awarding and
Office of Audit Servces. 


Monitoring Discretionary Grants. Human Development Servces . (Number A- 12-
89- 00142).

U. S. House of Representatives , Committee on Government Operations.
Mismanagement of the Office of Human Development Servces: Undermining
Programs for Children. the Disabled. and the Elderly . (Washington , D. c.: U.
Government Printing Office , 1987 , 100th Congress , 1st Session , House Report
100- 57).

Six additional grants with multiple time extensions or funding supplements were
closed-out after we selected our sample. The additional grants are included in the
study universe.



Our chi-square test yielded a value of 17. 29 which indicates a difference among all
tyes of grantees at the 99 percent confidence level. Further, our t test showed
that (1) at the 99 percent confidence level , government grantees were more likely
to get time extensions than private agency grantees; (2) at the 95 percent
confidence level , government grantees were more likely to get time extensions
than educational-research grantees; and (3) at the 90 percent confidence level
government grantees were more likely to get extensions than public non- profit
agency grantees.

At the 95 percent confidence level , the percentage of grants with late
authorization signatures can fall in an interval of 27 percent to 44 percent based
on the 43 grants in our sample that received multiple time extensions.
                     APPENDIX A



                  AcrAL LENGTH OF CDP        GRA
                      FISCAL   YES 19861988
Granting    oe=17 Mos.   18- 24 Mos.   25- 36 Mos.     36 Mos.   Tot.
Agency
            NO.          NO.           NO.           NO.         NO.
 AOA                                                              111
 ACYF                    150                                      287
 ADD
 ANA
 OPPL
Total for    102         219           118                        454
 OHDS
                     APPENDIX 



       NUER OF TI          EXTNSIONS FOR CDP GRA        DURG
                       FISCAL   YES 1986-1988
Granting   Total                      Grants With
Agency     Grants
                    No Extensions    Single Extension     Multiple
                                                         Extensions
                      No.               No.               No.
AOA          111
ACYF         287     157               102
ADD
ANA
OPPL
TOTAL        454     195               184
                           APPENDIX 

  OHDS CDP GRA         EXSIONS AN SUPPLE                     BY TYE   OF GRA
                     Demonstra-   Research   Training   Servce   Other    Total
                        tion


                            ADMIS1RTION ON AGING
Single Exension
Multiple
Exensions
Supplement Only
Both Exension
and Supplement
No Exensions
or Supplements
  Total for AOA


Single Exension
Multiple
Exensions
Supplement Only
Both Exension
and Supplement
No Exensions
or Supplements
  Total for ACYF
                  ADMIS1RTION ON DEVELOPMENTAL DISABILIT
Single Exension
Multiple
Exensions
Supplement Only
Both Exension
and Supplement

No Exensions
or Supplements
  Total for ADD




                                         C - 1

     OHDS CDP GRA        EXTSIONS AN SUPPLEME BY TYE OF GRA

                                       contiued
                     Demonstra-   Research   Training   Service   Other   Total
                        tion


                     ADMIS1RTION FOR NATI AMICANS
Single Exension
Multiple
Exensions
Supplement Only
Both Exension
and Supplement
No Exensions
or Supplements
  Total for ANA
                   OFACE OF POLICY    PLAG AN LEGISlATION
Single Exension
Multiple
Exensions
Supplement Only
Both Exension
and Supplement
No Exensions
or Supplements
  Total for OPPL
                             OHDS AGENCIE COMBIND
Single Exension
Multiple
Exensions
Supplement Only
Both Exension
and Supplement
No Exensions
or Supplements
  Total for OHDS




                                         C-2
                             APPENDIX D


    OHDS CDP GRA EXNSIONS AN               SUPPLEME      BY TYE   OF   GRA
                       Gov      Public Non-    Private     Educational    Total
                                  Profit      Agencies    Organizations


                             ADMIS1RTION ON AGING
Exensions
Supplement Only
Both Exension
and Supplement

No Exensions
or Supplements
  Total for AOA


Exensions
Supplement Only
                             63 43 30
                ADMIS1RTION FOR CIDREN, YOUT AN FAM



Both Exension
and Supplement
No Exensions
or Supplements
  Total for ACYF
                  ADMIS1RTION ON DEVELOPMENTAL DISABILIT
Exensions
Supplement Only
Both Exension
and Supplement

No Exensions
or Supplements
  Total for ADD




                                       D-1
    OHDS CDP GRA       EXSIONS AN SUPPLEME                   BY TYE   OF   GRA

                                       contiued
                       Govt.      Public Non-      Private     Educational    Total
                                    Profit        Agencies    Organizations


                     ADMISTRTION FOR NATI AMICANS
Exensions
Supplement Only
Both Exension
and Supplement
No Exensions
or Supplements
  Total for ANA
                   OFFCE OF POLICY    PLAG AN LEGISLATION
Exensions
Supplement Only
Both Exension
and Supplement
No Exensions
or Supplements
  Total for OPPL
                               OHDS AGENCIE COMBIND
Extensions
Supplement Only
Both Exension
and Supplement

No Exensions
or Supplements


  Total for OHDS




                                          D-2
                       APPENDIX 



           NUER OF FUING SUPPLEMENT FOR COP GRA DURG
                              FISCAL   YES 198198
Granting     Total                               Grants With
 Agency      Grants
                      No Supplements            Supplement Only   Supplement and
                                                                    Exension
                        No.                        No.               No.
AOA             111     100

ACYF            287    275
ADD
ANA
OPPL
TOTAL           454    416




                                       E - 1

                                APPENDIX 



           SUMY OF OHDS GRA              AWARS AN FUING SUPPLEME
                                   (dollar in thousnds)

Granting     # of     Grant      Avg.      # of      Total       Avg.   Supp. as   Supp. Over
Agency      Grants   Awards     Award     Grants    Funding      Supp    %of        25% of
                                           With      Supp.              Award       Budget
                                          Supps.
                                                                                     No.
AOA            111    $17 596     $159                    $498    $45
ACYF           287    $24 802      $86                    $332    $28
ADD                       694     $180                    $382    $96
ANA                       014     $144                     $85    $21

OPPL                      321     $216                    $487    $70
               454    $52 427     $115                     784    $47
TOTAL
including funding supplements




                                           F - 1

    APPENDIX G

AGENCY COMMNT ON DRA REPORT




            G ­

                 ,"    (p.                                                "'       .,         ~~~
                  "'"UU-     H.uh J. UJ. .l.&LIH &. HU lAN SERVICES
'I

"""ra


                                                                                ADMINISTRATION FOR CHILDREN AND FAMILlE
                               March 23, 1992                                   370 L' Enfant Promenade, S.
                                                                                Washington, D. C.   2047

         To:            Richard P. Kusserow
                        Inspector General

         From:         Jo Anne B. Barnhart
                       Assistant Secretary f

                         Chiljren and Fam
' ie

         Subj ect :    Comm       nts on the Offi of
                                                  Inspector General' s Draft
                       Report: " Time Extensions and Funding Supplements for
                       OHDS Discretionary Grants
    OEI-04-89-00801
        We have reviewed the Inspector General'
         Time Extensions and Funding Supplementss for
                                                  draft inspection
                                                      OHDS          report

                                                           Discretionary

        Grants    and find that it accurately reflects the former
        experience in granting time extensions and supplemental     OHDS'
        grantees during fiscal years 1986 through                funds  to
                                                   1988.  We have
        following comments with regard to the findings and the one
the
        recommendation in the report.


        OIG Finding:


        Time extensions were common for CDP grants


               Although 58 percent of grants received time extensions

               three-fourths had only a single extension of short
                                                                                                      duration.
               Grantees receiving multiple time extensions frequently

               mentioned that their award notices had arrived at the end 

               a fiscal year -- only weeks or days prior to scheduled start

               dates -- causing them to get a late
               new CDP awards are made in the last quarter The
                                                           of amajority of
                                                                          start.
               year.           ii)                                                                  fiscal
        ACF Comment:
      The report bases its recommendation on the above
      should be pointed out that of the 454 grants reviewed for                                finding. It
     GIG' s study, only 75 (17%) received multiple time          the
                                                         extensions.
     Moreover , these 75 grantees indicated at least five separate
     factors associated with not being able to complete project work

     plans as originally scheduled. Only one of these factors related
     to "late" execution of the grant                   award.
                                                (The others were
     completely independent of grantor agency actions.

     each of the five factors was equally responsible for Assuming
                                                            causing
that

     delays on the part of these 75 grantees
                                              , it is not likely that

     mc:re than approximately 15 out of 454LgJFP e*e
     c1te the Federal grant award date as a tA8to Gas ?l!t 3. 3% would
     their requiring multiple time                         ated w1th
                                                    extensions.
                                                                                 :':J';I
                                                               ..l.J
                                                             1-1:"1 r""
                                                                           N!    .:0 :2"

                                                                   031\!3               3CJ
 page
        2 - Richard P. Kusserow


 secondly, the report fails to recognize that it is infeasible to

schedule grant awards to meet the varying preferences of

individual applicants and, equally important , that any set

schedule for awarding grants will please some applicants but

discomfit others. Assuming that initiation of project activities

is dependent on Federal funding, grant applicants should make no

presumptions concerning when they can actually begin implementing

their projects until they are notified that they are funded.
Well- planned projects that are dependent on Federal funds for
their initiation should build start-up time into their proposed

project periods. The vast majority of our grantees appear to

understand these requirements and complete their proj ects without
requesting multiple time extensions attributable to "late " grant

award dates.
OIG Recommendation:
ACF and AoA should award CDP grants earlier in a fiscal year

rather than awarding the majority of new grants in the last

quarter.
        Such practice would allow for needed start- up or lead time

        for grantees to begin projects on schedule. This practice
        should decrease the number of time extensions due to late

        starts. We recognize that ACF and AoA schedules for

        announcing, reviewing and approving grants will need to be

        revised to accomplish this recommendation.
ACF Comment:
We concur. Al though  we agree with the thrust of this
recommendation from an agency workload management perspective, we

do not believe , based on the evidence , that the problem cited in

the OIG Report is widespread or that altering grant award

schedules will affect the incidence of multiple extensions of

project periods. We are concerned that the majority of our CDP
grants are being awarded in the fourth quarter and we have

already taken steps to address this concern.
At a recent ACF Senior Staff jRegional Administrators ' meeting, we

discussed how we could accelerate our grant program announcements

process. I   have already implemented some of the recommendations
from this meeting. For example , the ACF publication schedules
for announcing, reviewing and approving discretionary and formula
grants have been revised. New deadlines have been established

for the submission and review of program announcements by ACF

off ices.  A six- week limit has been placed on the evaluation
process (from the closing date of the announcement to the
submission of a decision package (s) to the front office). These
new requirements were outlined in my memorandum to ACF Senior

Staff , dated November 12 , 1991.
     (p.



   e 3 - Richard P. Kusserow

 echnical CO    ents
     The report contains several references to discussions with

     grantees on their reasons for requesting time extensions.

           7)
            These discussions are reflected in the OIG
     recommenda tion and, as such, should be added to the

     description of the methodology on pages i and   4. Reference
     to discussions with grants officers (p. 4) should also be
     referenced on page i.
     To fully reflect the findings discussed in the body of the

     report , we suggest that two statements be added to the
     executi ve summary on page  ii:
            Under the heading: "Time extensions were common for CDP

            grants " a third bullet should be added to state:
            "After late starts . the most frequent reason for
            requesting a time extension was to expand the original

            scope of work by adding new and more activities" (see
            page 7).
            Under the heading: "Few CDP grants received funding

            supplements, " we suggest that the following statement
            be added: "When granted, supplements most commonly were

            used to expand the scope of work" (see page 9).
Thank you for the opportunity to respond to the recommendations

in this report. If I can be of further assistance in this

regard , please let me know.
""'''''''                                                                      ~~~                        - ..




                  DEPARTM OF HETI &   HU SERVICE                                           Of of th Sec
                                                                                       Admtron on Agg
( E
                                                                                       Wasgt, D.C. 201




                                                                                APR 'e 


            TO:         Richard P. Kusserow
                        Inspector General


            FROM:        u. s. Commissioner on Aging

            SUBJECT:     Time Extensions and Funding supplements


            Thank you for the opportunity to review the draft report on the

             Time Extensions and Funding supplements " on discretionary grants

            at the Administration on Aging (AoA) for Fiscal Years 1986

            through 1988. We are pleased that the requirements for approval
            of time extensions and supplements were                 followed.
                                                                However, you
            recommended that AoA award CDP grants earlier in a fiscal year

            rather than awarding the majority of new grants in the last

            quarter. We concur , and understand this recommendation is of

            most importance.
            During the time period of the study AoA was a part of the CDP

            process ,however, since 1989 we issued our own Discretionary
            Funds Program announcement and with the exception of 1991 most

            new grants were awarded in the third quarter.


            AoA is making every effort to schedule announcing, reviewing and

            approving grants prior to the fourth quarter.





                                                1:1




                                            C. '      .0 0
                                                           77\111;7'"'
                                                            (. 00, l.OUI

                                                   rY:j I, II
                                              .. V-' O"'        n :2" ..;J..
                                                           ,. .:.. ...,


                                                   G31\1383B
